HHS/OIG, Audit -"Audit of Austinwoods Nursing Center's Medicaid Cost Report for the Calendar Year Ended December
31, 2001,"(A-05-03-00105)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Austinwoods Nursing Center's Medicaid Cost Report for the Calendar Year Ended December 31, 2001," (A-05-03-00105)
October 5, 2004
Complete
Text of Report is available in PDF format (176 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs reported on Austinwoods’ Calendar Year (CY) 2001 cost
report were allowable, allocable, and reasonable in accordance with applicable Federal and State requirements. Of the total
costs claimed on Austinwoods’ CY 2001 cost report, $39,104 of indirect costs related to services provided to non-resident
patients in the physical therapy unit and costs that were not related to patient care were unallowable.  The State
plan requires that costs claimed by nursing facilities must be related to patient care provided to resident patients.  The
unallowable costs were due to a lack of a methodology to identify indirect costs and allocate those costs to the physical
therapy unit, and, subsequently, between resident and non-resident services as well as weaknesses in their system for classifying
costs. We recommended that Austinwoods work with the State to adjust the unallowable expenses; establish a methodology
for costs allocable to the physical therapy unit; and establish policies and procedures to ensure that costs are properly
categorized.